9 0-

Supreme Court, U.S.
FILED

MAY t h 2021
IN THE

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

October Term, 2020

PATRICK ALAN VERCRUYSSE,
Petitioner,
vs.

BRYAN MORRISON,
Respondent.
On Petition for Writ of Certiorari
To the United States Court of Appeals
For the Sixth Circuit

PETITION FOR WRIT OF CERTIORARI

Submitted by:
Patrick Alan Vercruysse, #252956
In Propria Persona
Lakeland Correctional Facility
141 First Street
Coldwater, Michigan 49036

Dated: May 14,2021

STATEMENT OF QUESTIONS PRESENTED
(I)
SHOULD PETITIONER'S CONVICTION BE VACATED DUE TO INSUFFICIENCY
OF THE EVIDENCE THAT HE CAUSED THE DEATH OF DOCTOR THOMPSON
BY STRANGULATION OR SUFFICATION RESULTING IN FIRST DEGREE
MURDER, VIOLATIVE OF U.S. CONSTITUTION AMENDMENT XIV?
YES
NO

Petitioner answers ..........
All Courts Below answered

(ID
SHOULD PETITIONER'S CONVICTION BE REVERSED WHERE THE EVIDENCE
NEEDED TO PROVE THE INTENT ELEMENTS WERE DERIVED FROM
FABRICATED POLICE TESTIMONY PLACED BEFORE THE JURY WITHOUT
CORRECTION FROM THE PROSECUTION RESULTING IN A CONVICTION
PREDICATED ON PERJURED TESTIMONY VIOLATIVE OF DUE PROCESS AND
A FAIR TRIAL U.S. CONSTITUTION AMENDMENT XIV?
Petitioner answers ..........
All Courts below answered

.YES
NO

LIST OF PARTIES
The Parties listed in, or associated with, the instant Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit, are listed in the cover page
heading and can be addressed as:

Petitioner Party:
Patrick Alan Vercruysse, #252956
Lakeland Correctional Facility
141 First Street
Coldwater, Michigan 49036

Respondent Party:
Bryan Morrison, Warden,
do Michigan Attorney General's Office
Department of Attorney General
G. Mennen Williams Building, 7th. Floor
525 West Ottawa Street
Post office Box 30212
Lansing, Michigan 48909

No.

October Term, 2020

PATRICK ALAN VERCRUYSSE,
Petitioner,
v.
BRYAN MORRISON,
Respondent.

DISCLOSURE OF CORPORATE AFFILIATION
AND FINANCIAL INTEREST
PotitiQnor_ctatoc-that*rMjrcuQotJ.fA-.Qiir»roma*0/M.irtJ.DiilAJ!)Q A_

actionand hereby makes the following statements:
[X] That he is not a party or subsidiary or affiliated with any public owned corporation. Nor is
a public owned corporation a party to this action. Moreover, there is no public owned corporation
owning 10% or more of the corporation's stock, that would have a financial interest in the outcome
of this proceeding in the US Supreme Court.
This corporate financial disclosure statement is made under the penalty of perjury
pursuant to Title 28USC§1746. FURTHER, Petitioner says not.

Dated: May 14,2021

/s/_
iii

Patrick A. Vercruyise

TABLE OF AUTHORITY
Adams v Smith, 280 Fed. Sepp 2d 704,714 (E.D. Mich. 2003) ...
Agostini v Felton, 521 US 203, 237-238 (1997) .........................
Albrecht v United States, 273 US 1,11 (1926)..........................
Bell v Cone, 535 US 685,694; 122 S Ct 1843 (2002) .................
Berger v United States, 295 US 78,88 (1935) ..........................
Brown v Palmer, 441 F 3d 347,351 (6th. Cir. 2006) ..................
Burks v United States, 437 US 1,18; 98 S Ct 2141 (1978) ........
California v Trombetta, 467 US 479; 104 S a 2528 (1984).........
Christoffel v United States, 338 US 84,89; 69 S Ct 1447 (1949) ...
Cullen v Pinholster, 131 S Ct 1388,1410; 179 L Ed 2d 557 (2011)
Early v Packer, 537 US 3,8; 123 S a 362 (2002) ......................
Engle v Isaac, 456 US 107; 71 L Ed 2d 783,799 (1982) ...........
Giglio v United States, 405 US 150; 92 S Ct 763 (1972) .............
Green v Massey, 437 US 19,24; 98 S a 2151 (1978) ...............
In re Winship, 397 US 358, 363 (1970) .....................................
Jackson v Virginia, 443 US 307(1979) ..................................
Leftwich v Maloney, 532 F 3d 20,24 (1St. Cir. 2008) .................
Lockhart v Nelson, 488 US 33,42; 109 S Ct 285 (1988) .............
Martin v Mitchell, 280 F 3d 594,617 (6th. Cir. 2002) ..................
McDaniels v Brown, 558 US 120; 130 S a 665 (2010) ..............
McMillan v Pennsylvania, 477 US 79,85 (1986) .......................
Miller-tl v Cockrell, 537 US 32,336; 123 S Ct 1029 (2003).......
Mooney v Holohan, 294 US 103; 55 S a 340, 34 (1935)..............
Napue v Illinois, 360 US 264,270 (1959) ..................................
Nishikawa v Dulle, 356 US 129 (1958) .....................................
Parr v Texas, 363 US 370,393-394 (1960) ..............................
People v Hampton, 407 Mich 354,366; 285 NW2d 284 (1979) ....
People v Lewis, 278 Mich App 356; 788 NW2d 461 (2010) .........
Sullivan v Louisiana, 508 US 275, 278(1993).............................

12
19
.5
15
17,18
11
16
19
14,18
.6
15
.6,19
18
16
.........passim
9,11,12,14,15
15
16
14
16
14

Williams v Taylor, 120 S Ct 1495 (2000) ..................................

13

United States v Agurs, 427 US 97,103; 96 S a 2392 (1976) ......
US Const. Amend. XIV .........................................................
Mich. Const. 1963, Art 1, § 17.................................................
28 USC § 2254(d)(1)..............................................................
iv

18
passim
.4
15

.4
,6,19
.2,4,18,19
13
19
12
12
14

TABLE OF CONTENT
Statement of Question Presented
List of Parties

.ii

Corporate Disclosure Statements

,iii

Table of Authority

.iv

1

Petition for Writ of Certiorari
The Opinions Below

.2

Basis for Jurisdiction

3

Constitutional and Statutory Provisions Involved

,4

Certiorari Statement

.4

Reason for Allowing the Writ of Certiorari .....

5

Consideration Governing Review on Certiorari

,6

Statement of Case

.7

Arguments :
(I)
PETITIONER'S CONVICTION MUST BE VACATED DUE TO INSUFFICIENCY OF
THE EVIDENCE THAT HE CAUSED THE DEATH OF DR. THOMPSON BY
STRANGULATION/SUFFOCATION RESULTING IN FIRST DEGREE MURDER. US

fnMCT_* yrovrr» _.vrw.

Discussion .................................................
Background Facts ......................................
The Evidence Presented to Jury ..................
The Element Instruction to Jury...................
Elements of First Degree Murder in Michigan
The Contrary to Requirement ......................

,9
.9
10
11
12
15

(H)
PETITIONER'S CONVICTION MUST BE REVERSED WHERE THE EVIDENCE
NEEDED TO PROVE THE INTENT ELEMENT WAS DERIVED FROM FABRICATED
POLICE TESTIMONY FROM THE PROSECUTION RESULTING IN A CONVICTION
PREDICATED ON PERJURED TESTIMONY VIOLATIVE OF DUE PROCESS AND A
17
FAIR TRIAL UNDER US CONST. AMEND. XIV.
The Inquiry for Certiorari .........................................
The State Courts Erroneous Determination of the Facts
The District Court's Wrongful ssessment ...................
The Due Process Safeguard .......................................
v

17
17
17
18

CONTENTS CONTINUED
Summary and Conclusion

20

Proof of Service

21

Declaration of Compliance under 28 USC § 1746............................................................
Reference to Appendices:
Sixth Circuit's Opinion and Order of February 17, 2021
Sixth Circuit's Opinion and Order of February 1, 2021
Sixth Circuit's Opinion and Order of December 7, 2020
US District Court's Opinion and Order of August 19, 2020
Michigan Supreme Court's Order of April 30, 2019
Michigan Court of Appeals Order of October 12, 2018
Trial Court's Opinion and Order Denying Post Conviction Relief on January 25, 2018
Michigan Supreme Court's Original Order denying the appeal of right on October 28, 2014
Michigan Court of Appeals Original Opinion denying the appeal of right on Feb. 25, 2014
See Appendix Index for page references

vi

No.

IN THE
SUPREME COURT OF THE UNITED STATES

*** October Temm, 2020 ***

PATRICK ALAN VERCRUYSSE,
Petitioner,
-VS-.

BRYAN MORRISON,
Respondent.
FETmON'FOR'WRIT'OF CERTIORARI

Petitioner, Patrick Alan Vercruysse, hereby petitions this Court for an order granting his
Writ of Certiorari, to review the Opinion and Orders rendered in this case on February 17, 2021,
by the US Court of Appeals for the Sixth Circuit, denying his appeal, from the US District Court Western District of Michigan, in Grand Rapids, Michigan denying his Title 28 USC § 2254 habeas
corpus petition. The decisions below were contrary to this Court's rulings on issues of the
same magnitude regarding the claium of insufficiency of the evidence on the elements of first
degree murder, not proven beyond a reasonable doubt as to each statutory element.

1

The decisions below conflicts with the decisions of this Court where a Petitioner's
conviction rested onperjured testimony, known to be such by representatives of the State of
Michigan under clearly established law from this Court, i.e., Napue v Illinois, 360 US 264, 270
(1959).
Further, Petitioner is mindful that this Court rarely grants a pro. per. indigent prisoner
certiorari relief. However, because his case is one of exceptional circumstances, that is, he was
deprived of his Fourteenth Amendment right to due process of law during the state court trial where
false testimony was used to establish the statutory elements to support the first degree murder
charge, that his conviction should not be allowed to stand. Thus, the Courts below, trampled on
his Fourteenth Amendment right to fundamental due process and the denial of a fair trial and
just verdict, he urges this Court to abandon its normal posture of denying a pro. per. litigants
an opportunity to be heard in his cause. Petitioner states in support of his petition for writ of
certiorari as follows:

The Opinions Below
The February 17, 2021 opinion and order from the U.S. Court of Appeals for the Sixth
Circuit, denying the En Banc Petition for Rehearing, is unpublished and can be found in the
Appendix., as Appendix-A. _JThe_OPinion _and order,from .the. United States Court . of. Appeals from
the Sixth Circuit on February 1, 2021, is unpublished and can be found in the Appendix, as
Appendix-B. The opinion and order from the United States Court of Appeals on December 7,
2020, is unpublished and can be found in the Appendix, as Appendix-C. DENYING THE Certificate
of Appealability for appellate review.
The opinion and order from the US District Court, denying the 28 USC § 2254 habeas
petition on August 19,2020, is unpublished and can be found in the Appendix, at Appendix-D. The
Opinion and Order from the Michigan Supreme Court rendered on April 30, 2019, denying the
application for leave to appeal is unpublished and can be found in the Appendix, as Appendix-E.
The opinion and order from the Michigan Court of Appeals rendered on October 12,2018 denying
relief, is unpublished and can be found in the Appendix, as Appendix-F. The opinion and order
2

from the Court of Appeals denying the appeal of right, rendered on February 14, 2014, is
unpublished and can be found in the Appendix, as Appendix-G. The opinion and order from the
Michigan Supreme Court denying relief on the appeal of right, enteree on October 28, 2014, is
unpublished and can be found in the Appendix, at Appendix-H. The opinion and ordere from the
state circuit court denying the post conviction motion on January 25,2018, is unpublished and can
be found in the Appendix, at Appendix I. These are the opinions and orders from the courts below.

Basis for Jurisdiction
Petitioner Vercruysse seeks review in this Honorable Court from the Opinion and Order
entered on February 17, 2021, by the Sixth Circuit under citation, Vercruysse v Morrison, (6th.
Cir), case number 20-1928, denying his appeal from the US District Court's denial of his 28
USC § 2254 habeas petition, where the judgment of the district court was premised on the state
court records where perjury served the basis to establish the specific intent element necessary to
commit first degree murder which was contrary to this Court's decision under the uling announced
in Winship, where this Court ruled that the prosecutot must prove each and every element of the
crime beyongd a reasonable doubt before the conviction will be allowed to constitutionally stand.
In re Winship, 397 US, at 264.
This would conflict with this Court's rulings on the subiect-matter^of the.Fourteenth.
Amendment's right to fundamental due process and the fair trial doctrine. Petitioner urges this
Court to grant certiorari and resolve the conflict from the State of Michigan version of proof of
every element beyond a reasonable doubt under the Winship theory for all future litigation which
will arise if the Court fails to correct the contrary to unreasonable application of, clearly
established law from this Court. Accord. US Const. Amend. XIV.
Accordingly, this Court is urged to address the claim in such a fashion that will preclude
future, and needless litigation on this subject matter of what, constitutes a deprivation of the right to
a fair trial where the elements of the crime was not proven beyond a reasonable doubt for the state
court conviction to constitutionally stand.

3

This Petition is timely, from the Sixth Circuit denying relief, pursuant to Rule 13.1 of the
Rules of this US Supreme Court. Jurisdiction is invoked pursuant to 28 USC § 1251.
Jurisdiction of this Court is also invoked under the supervisory authority vested in Title 28 USC §
1251; U.S. Const. Art III, and US Const. Amend. XIV.

Furthermore, Petitioner seeks

supervisory jurisdiction of this Court to determine whether the courts below completely
disregarded the rulings from this Court on the subject matters.
Thus, this Court should invoke its supervisory jurisdiction and hear the claim asserted. US
Const. Art III. Accord. US Supreme Court Rule 10(a); Miller El v Cockrell, 537 US 32,336; 123 S
Ct 1029 (2003). This Court should, as a matter of constitutional law, hear this certiorari petition
because the claims were ignored by the courts below depriving Petitioner of his due process rights
on collateral review. This case presents a novel questions on clearly established US Supreme
Court precedent under both In re Winship, and the decision on perjury in Napue v Illinois, infra

Constitutional and Statutory Provisions Involved
The issues presented for certiorari in this Court is in direct violations of the constitutional
amendments, and the statutory provisions listed infra:
1). US Const Amend. XIV, § 1 (1868)
All persons bom or naturalized in the United States, and subject to the jurisdiction thereof.
-—are citizens^df the United States and of the Btate wherein they reside. No state shall make
or enforce and law which shall abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal protection of the
laws.
2). Michigan Const. 1963 Art 1, §§ 17. (Due Process of Law - Fair Investigation Clause]
3). Title 28 USC § 2253(c)(1)
4). Title 28 USC § 2254(d)(1); (d)(2).
6). State Statutes: MCL § 750.316(1 )(a) (Murder in the First Degree).
***

Certiorari Statement
Petitioner seeks a writ of certiorari in this Court to decide a claim of first impression. That
is, there is no rulings from this Court on a claim of insufficiency of the evidence where the state
appellate court admits that "strangulation and suffocating" are not elements of first degree murder,

4

where the state trial court instructed the jury on these none statutory elements to find guilt. The
only case on similar point is the decision reached in Fallen v United States, infra, where the
Court ruled that the appeal should be allowed to go forward due to no fault of the Petitioner. So
stated, Petitioner Vercruysse asks this Court to make a judicial ruling on his claim and grant
certiorari relief for a new trial.
This Court has previously determined that a claim can be properly addressed before the
Court on proper citations to governing law. Albrecht v United States, 273 US 1,11 (1926). Thus,
Petitioner urges this Court to address his claims under the umbrella of clearly established
precedent as determined by this Court on like subject matters, which were ignored by the courts
below in denying habeas corpus relief. 28 USC § 2254(d)(1).

Reasons for Allowing the Writ of Certiorari
Petitioner urges this Court to grant his petition for writ of certiorari and clarify that a claim of
insufficiency of the evidence, which was not proven beyond a reasonable doubt as to each and
every element of the crime, is grounds for reversal under the due process guarantee embedded in
the Fourteenth Amendment, under the ruling announced in Winship.
The focus of the certiorari inquiry is, does the Fourteenth Amendment right to due process,
extends to the habeas corpus review from an appeal of right from the state courts, where the state
appellate courts misrepresented the facts of the case in order to establish an element of 'specific
intent' to kill for the statutory crime of first degree murder under, MCL § 750.316. This is perhaps
an issue of first impression under the Fourteenth Amendment's guarantee.
Petitioner asks this Court to grant certiorari to clarify, once and for all, that where, as here,
when a criminal defendant has been convicted on the basis of perjured testimony, known to be
such by representatives of hte state, should said conviction stand in light of the ruling in Napue v
Illinois, where this Court made clear: "no matter its subject matter... a lie is a lie." 360 US, at 270.
A Fortiori to grant certiorari in this case, this Court should grant certiorari and correct
the errors of the courts below, or pronounce a decision where criminal defendants have been
denied their right to a fundamental fair trial, would be a constitutional violation curable by
5

remanding the case for appellate review on the correct facts, as opposed to the misrepresentation
of those facts by the state appellate courts, which were adopted by the federal lower courts during
the habeas corpus proceedings under 28 USC § 2254. See, i.e., Cullen v Pinholster, 131 S Ct
1388,1410; 179 L Ed 2d 557 (2011).
Certiorari should be granted in this case, to assure that Petitioner has not been the victim of
the denial of the Fourteenth Amendment protection of the right to due process during his state
court proceedings, where perjury was suborned by the state prosecutor's and never corrected,
allowing the jury to render its verdict on these false facts. See, i.e., Mooney v Holohan, infra. This
Court is called upon to correct the constitutional violations as occurred in this case, carried over
from the state courts to the federal courts. US Const. Amend. XIV.
Petitioner asserts that Certiorari should be granted to announce a new rule of constitutional
law which addresses his claim as a matter of constitutional protection under the clearly established
law rulings on the subject of each claim presented for review. US Supreme Court Rule 10(c).

Consideration Governing Review on Certiorari:
"(c). a state court or a United States court of appeals has decided an important question of
federal law that has not been, but should be, settled by this Court, or has decided an
important federal question in a way that conflicts with relevant decisions of this Court."
—“Petitioner is entitled to- habeas corpusTelief irTthis case, and certiorari should Toe granted
on the inquiry on his claims asserted on the denial of due process where the courts below relied
on the false facts bolstered by the state prosecutor to justify the elements for first degree murder.
The District Court rendered its decision denying the habeas petition, contrary to this Court's
announcement in Engle v Isaac, 71 L Ed 2d 783,799, and opined:
"The writ of habeas corpus indisputably holds an honored position in our
jurisprudence. Tracing its roots deep into English common law, it claims a place in Art
I of our Constitution. Today, as in prior centuries, the writ is a bulwark against
convictions that violate fundamental fairness." Wainwright v Sykes, 433 US, at 97; 53
L Ed 2d 594; 97 S Ct 2497. (Stevens, J., concurring).
On this principle of law, Petitioner is entitled to a writ of certiorari on the merits
notwithstanding the erroneous rulings below. Cf. US Const. Amend. XIV. S. Ct. Rule 10(c).
6

STATEMENT OF THE CASE
Factual Background:
This first degree murder conviction derived from an incident in the State of Michigan.
Petitioner, was charged with, and convicted of, the murder of Dr. Thompson. He admitted to the
police that he pushed the Doctor who then fell on the garage floor hitting his head on the concrete
floor, but it was only after the Doctor pushed him. Following this situation, Petitioner left the garage
and came back and the Doctor hit him on the head with a clock/fixture. Unfortunately, the Doctor
hit his head on the concrete floor and became unconscious and Petitioner thought him to be dead.
He described this scenario to the police during the first interview following his arrest.

Petitioner

states that because of the circumstances, he did not intend to murder the Doctor, and that the
evidence presented by the state prosecutor was insufficient to justify a conviction of first degree
murder pursuant to MCL § 750.316. [A specific intent crime].
Forensic Anthropologist, Todd Fenton, testified to analysis of the skeletal remains found of
Dr. Thompson and to determine whether his remains had suffered any trauma. (Tr V pp 40 46).
He said he examined certain parts of the bony neck structure, skull and jaw. (Tr V p 47). He
discovered fractures in the 'thyroid cartilage and cricoid cartilage' (Tr V p 50). He believed these
nci-.i irrprl.at_nr_n<aar_tho _timo. nf^rloath (Tr_\/_ n _ RAI —Bi rt_hie

,

fractured hynoid bone would be consistent with manual strangulation. (Tr V pp 54-55). Dr. Fenton
agreed that it could not be determined whether the neck bones had been fractured before or after
Dr. Thompson died. (Tr V p 54).
Joyce DeJong, the Medical Examiner testified and confirmed that the thyroid cartilage and
cricoid cartilage were fractured. (Tr VI p 22). She found a split in the scalp in the back of the head.
She did not believe the cut in his scalp could have produced as much blood as was found on the
couch cushion, if the cut had occurred after he was dead. (Tr VI pp 27-28). She also said a head
injury, even if caused by a fall onto cement would ordinarily result in death only after several hours,
(Tr VI pp 30-31). She determined the cause of death was suffocation and strangulation and the
manner of death was homicide. (Tr VI pp 33-35).
7

The factors that entered into this determination were the plastic bags over his head; the Tshirt in his mouth; the cords around his neck. (Tr VI pp 34-35). The anatomical evidence
supporting this conclusion was the bleeding into the muscles of the neck and the fracturing of the
neck cartilage. (Tr VI p 36).
On cross examination, Dr. DeJong admitted that Dr. Thompson may have been dead before
the plastic bags were put on his head. (Tr VI pp 43-44). She also admitted he could have been
dead before the fabric was placed in his mouth or the duct tape placed over his mouth. (Tr VI p
44). She indicated that the extreme decomposition of the remains prevented her from ascertaining
the amount and extent of hemorrhaging in the brain, if any. (Tr VI pp 41-42). She reiterated on
redirect that she would have classified the cause of death as homicide even if Dr. Thompson was
already dead when this occurred. (Tr VI p 47).
Petitioner explained in his petition in the district court that first DVD clearly showed the metal
object, but this DVD was not shown to the jury. The prosecutor insinuated to the jury that
Petitioner’s version of the facts was false. (Tr V p 79; Tr V p 111). To bolster her insinuation, she
relied on two police officers' testimony which was false regarding the evidence retrieved from the
crime scene. (Tr V pp 10-111); (Tr VI pp 138-139) These are the erroneous facts relied on by
the Michigan Court of Appeals. (COA Sip. Op. p 2,114; p 3,112); (US District Court Opinion, p 18,
U 3; p21114).
The Michigan Court of Appeals Decision:
The Michigan Court of Appeals decision on this claim was both contrary to, and involved an
unreasonable application of clearly established law as pertaining to the facts of the first degree
murder charge. The Court of Appeals’ opinion specifically states that: proof of strangulation or
suffocation is not an element of first degree murder. However, the jury was instructed that death
by strangulation or suffocation was a fact that the prosecution had to prove beyond a reasonable
doubt." (COA Slip Opinion pp 3-4). These are the concise statement of the case material to
consideration of the questions presented in the certiorari petition.

8

ARGUMENT
[Certiorari Ground-One]
PETITIONER'S CONVICTION MUST BE VACATED DUE TO INSUFFICIENCY OF
THE EVIDENCE THAT HE CAUSED THE DEATH OF DR. THOMPSON BY
STRANGULATION/SUFFOCATION RESULTING IN FIRST DEGREE MURDER.
U. S. CONST. AMENDMENT XIV.
The Inquiry for Certiorari:
Petitioner asserts that the inquiry on this claim from the lower courts' denial of relief under
the due process clause of insufficient evidence to support the finding of guilt, is whether or not the
decision from the state appellate courts, and the lower federal courts resulted in a contrary to, or
involved an unreasonable application of clearly established federal law as determined by this
Court on the claim asserted. That is, was the decision denying relief to Petitioner contrary to
Jackson v Virginia, 443 US 307 (1979), or resulted in an unreasonable application of In re Winship,
397 US 358,362 (1970). This courtis asked to apply the correct governing principle to the facts
of the claim and grant the appropriate relief. 28 USC § 2254(d)(1) and (2). Thus, a de novo
standard is applicable here. US Supreme Court Rule #10.
Discussion
According to clearly established US Supreme Court precedent, the Due Process Clause of
■tn«T^Gi)irwvnin-nnron«nTCni'ri5vnipcio-inc^lO3CCUlonn’3-5KUe1,]Ury’rLTiari0-|niT000C6'16VIQ6nCe On

each and every element of the crime charged before the criminal conviction will be allowed to
stand. In re Winship, 397 US 358, 364; 90 S Ct 1068; 25 L Ed 2d 368 (1970). This Clause,
according to this Court, mandates protection of the accused against a conviction except upon
proof beyond a reasonable doubt of every fact necessary to constitute the crime with which s/he is
charged. 397 US, at 364. Thus, due process protects a criminal defendant from being convicted
upon insufficient evidence such as the instant case presents. US Const. Amend. XIV; See too,
Mich Const. 1963, Art 1, § 17.
Background Facts
Petitioner Vercruysse, was convicted of the murder of Dr. Thompson. He admitted to the
police that he pushed the Doctor who then fell on the garage floor hitting his head on the concrete

9

floor, but only after the Doctor pushed him. Following this confrontation, Petitioner left the garage
and came back and the Doctor hit him on the head with a metal object such as a clock/fixture.
Unfortunately, the Doctor hit his head on the concrete floor and became unconscious and
Petitioner thought he was dead. He described this scenario to the police during the first interview
following his arrest. For his habeas relief argument, he did not claim he did not cause the death of
Dr. Thompson. He argued that because of the circumstances, he did not intend to murder the
Doctor, and that the evidence presented by the state prosecutor was insufficient to justify a
conviction of first degree murder pursuant to MCL § 750.316. [A specific intent crime].
The Evidence Presented to the Jury
Forensic Anthropologist, Todd Fenton, testified to analysis of the skeletal remains of Dr.
Thompson and to determine whether the remains had suffered any trauma. (Tr V pp 40 46). He
said he examined certain parts of the bony neck structure, skull and jaw. (Tr V p 47). He
discovered fractures in the 'thyroid cartilage and cricoid cartilage’ (Tr V p 50). He believed these
occurred at, or near the time of death. (Tr V p 54). But, his hyoid bone was not fractured; a
fractured hynoid bone would be consistent with manual strangulation. (Tr V pp 54-55). Dr. Fenton
agreed that it could not be determined whether the neck bones had been fractured before or after
Dr. Thompson died. (Tr V p 54).
Dr. Joyce DeJong, the Medical Examiner testified and confirmed that the thyroid cartilage
and cricoid cartilage were fractured. (Tr VI p 22). She found a split in the scalp in the back of the
head. She did not believe the cut in his scalp could have produced as much blood as was found
on the couch cushion, if the cut had occurred after he was dead. (Tr VI pp 27-28). She also said a
head injury, even if caused by a fall onto cement would ordinarily result in death only after several
hours, (Tr VI pp 30-31). She determined the cause of death was suffocation and strangulation and
the manner of death was homicide. (Tr VI pp 33-35). The factors that entered into this
determination were the plastic bags over his head; the T-shirt in his mouth; the cords around his
neck. (Tr VI pp 34-35). The anatomical evidence supporting this conclusion was the bleeding into
the muscles of the neck and the fracturing of the neck cartilage. (Tr VI p 36).
10

On cross examination, Dr. DeJong admitted that Dr. Thompson may have been dead before
the plastic bags were put on his head. (Tr VI pp 43-44). She also admitted he could have been
dead before the fabric was placed in his mouth or the duct tape placed over his mouth. (Tr VI p
44). She indicated that the extreme decomposition of the remans prevented her from ascertaining
the amount and extent of hemorrhaging in the brain, if any. (Tr VI pp 41-42). She reiterated on
redirect that she would have classified the cause of death as homicide even if Dr. Thompson was
already dead when this occurred. (Tr VI p 47).
Petitioner asserts that given this equivocal evidence, the evidence presented by the state
trial prosecutor in this case was insufficient to justify the conviction for first degree murder
without the specific intent elements being present. Therefore, the state courts decision on this
claim was contrary to, and unreasonable application of federal law by the Supreme Court's
decision, cf. In re Winship. supra. [Mandating each and every element proven beyond a
reasonable doubt]. The lower federal courts reached the same erroneous conclusion.
The Michigan Court of Appeals decision on this claim was both contrary to, and involved an
unreasonable application of clearly established law as pertaining to the facts of the first degree
murder charge. The Court of Appeals' opinion specifically states that: proof of strangulation or
suffocation is not an element of first degree murder. However, the jury was instructed that death
by strangulation or suffocation was a fact that the prosecution had to prove beyond a reasonable
doubt." (COA Slip Opinion pp 3-4). This is a contrary to, and an unreasonable application of the
ruling under In re WinsNp, which mandates that each and every element of the crime charged
must be proven beyond a reasonable doubt before the conviction will be allowed to stand, cf.
Jackson v Virginia, 443 US, at 319. [Due process violated and habeas relief granted for
insufficient evidence because prisoner showed that no rational trier of fact, viewing the evidence
in a light most favorable to the prosecution, could have found the essential elements of crime
beyond a reasonable doubt]. See also, Brown v Palmer, 441 F 3d 347,351 (6th. Cir. 2006).
The Element Instruction to the Jury
At trial, the state trial judge instructed the jury on the first degree murder charge. The judge
11

did not tell the jury that strangulation or suffocation were not elements for first degree murder by
Michigan law MCL § 750.316. The trial Court simply stated:
... In order to find Defendant guilty of first degree murder you have to find that Defendant
caused the death of Dr. Thompson by suffocation or strangulation. (Tr VII p 12).
***

This instruction was erroneous because under the Laws of the State of Michigan, this
instruction is the essential element of any case of murder. That is to say, that Petitioner caused
the death of the victim. Consequently, as the Michigan Court of Appeals proclaimed: suffocation
or strangulation are not elements of first degree murder in Michigan. (Sip. Op pp 3-4). Thus, the
decision by the State Courts denying relief was unreasonable, wrong, and contrary to clearly
established law under insufficient evidence claims. Accord. In re WinsNp; Jackson v Virginia,
supra. The US District, relying on the misleading testimony from two detectives, denied relief on
this claim and ignored the due process safe guards of the Fourteenth Amendment.
Elements of First Degree Murder in Michigan
Consistent with Michigan statute, MCL § 750.316, defining the elements of premeditated
murder are: (1) an intentional killing of a human being; (2) with premeditation and deliberation,
cf. People v Lewis, 278 Mich App 356; 788 NW 2d 461 (2010). Affirmed/vacated in part, 490 Mich
92; 806 NW 2d 295. Yet, in Petitioner1 s case, the elements described for first degree murder
does not come close to Michigan's first degree murder definition as to the elements. Thus, the
evidence to convict Petitioner was insufficient to justify a conviction of premeditated murder. CL
People v Hampton, 407 Mich 354, 366; 285 NW 2d 284 (1979)- [citing In re Winship, discussing
due process requirements on each element of the crime].
Although the Court of Appeals relied on the jury instruction to satisfy the elements, the
evidence, when viewed in its entirety, must generate more than a mere speculation of guilt, and
where such evidence is equally consistent with guilt and innocence, such as the instant case, the
conviction cannot be sustained. Accordingly, the COA’s determination was unreasonable in light
of the facts presented at trial, cf. Winship, at 372. Applying the Jackson v Virginia standard to the
facts of this case, and affording the explicit reference to the substantive element of the criminal
12

offense by state law, Adams v Smith, 280 Fed. Supp 2d 704,714 (E.D. Mich. 2003), the decision
of the Court of Appeals was both contrary and unreasonable insofar as the due process element
requirement is concerned. Winship, supra, 397 US, at 362.
At Petitioner's trial, the jury did not hear any evidence which supports the Court of Appeals
decision. The jury heard no evidence supporting the fact that Petitioner was hit on his head which
caused him to react, causing the death of Dr. Thompson. The jury did hear that the defense was
mostly lies because there was no clock/fixture seen in the second DVD video of the garage. The
jury instruction did not convey that the suffocation or strangulation were not elements of first
degree murder, they only heard that the death was caused by Petitioner amounting to murder in
the first degree by strangulation or suffocation. (Tr VII p 12).
Consequently, the prosecutor’s case was lacking in evidence to support the fact that
Petitioner had a specific intent to kill Dr. Thompson even before the pushing-shoving match. The
evidence which was not presented to the jury supports Petitioner's posture of self defense. Thus,
no reasonable trier of fact would have found him guilty of first degree murder had all the evidence
been presented and the evidence which was presented was insufficient to justify the conviction in
light of the due process safeguards mandating each element proved beyond a reasonable doubt.
Petitioner concedes that the jury was not obligated to accept as true his defense and other
evidence. However, the US Supreme Court held in NisNkawa v Dulle, 356 US 129 (1958), that:
"mere disbelief of a witness' testimony cannot serve to fill evidentiary gaps in the case; it will not
justify a conclusion that the opposite of the witness' testimony is true in the absence of any
independent evidence affirmatively supporting the conclusion." An unreasonable application of
clearly established federal law was rendered. Williams v Taylor, 120 S Ct 1495 (2000). Petitioner's
conviction for first degree murder must be vacated and the charge dismissed under the due
process clause, cf. In re Winship, 397 US at 364. In WinsNp, the Court explained that in a
federal trial a conviction obtained without the proof of each and every elements of the crime
charged, the conviction would not be allowed to stand in light of the due process clause guarantee
of a fair trial. An appellate court reviewing such a claim in alight most favorable to the prosecution,
13

must determine whether or not a rational trier of fact could find guilt beyond a reasonable doubt.
In re Winship. supra; US Const. Amend. XIV.
Finally, in Jackson v Virginia, 443 US 307, 319 (1979), the US Supreme Court established
that a court's review of a sufficiency of the evidence claim must focus on whether "after viewing
the evidence in a the light most favorable to the prosecution, any rationale tries of fact could have
found the essential elements of the crime beyond a reasonable doubt." A Court must view this
standard through the framework in Martin v Mitchell, 280 F 3d 594,617 (6th. Cir. 2002).
Moreover, the Jackson standard must be applied with explicit reference to the substantive
elements of the criminal offense as defined by state law. cf. Jackson, 443 US at 324, n. 16.
Applying US Supreme Court precedent to the instant case, the fact finder determination that
Petitioner was guilty of murder in the first degree, the conviction should not be allowed to stand.
Christoffel v United States, 338 US 84, 89; 69 S Ct 1447 (1949). This conviction must be
reversed, and Petitioner discharged from custody. A retrial with insufficient evidence would be
simply reinstating the conviction which would be reversed again. Due process requires that
Petitioner be discharged on insufficiency of the evidence to convict him. US Const. Amend. XIV.
At trial it was alleged under Michigan law, MCL § 750.316, that Petitioner murdered Dr.
Thompson. It was not shown why this occurred and what motive Petitioner had to commit first
degree murder. It was only shown that Dr. Thompson died from possibly strangulation or
suffocation by Petitioner's hands. The elements were not proven and under clearly established
Supreme Court precedent, the conviction cannot stand. In re Winship; Jackson v Virginia, supra.
The reasonable doubt standard applies to both state and federal courts. Cf. Sullivan v
Louisiana, 508 US 275,278(1993), Here the elements of the first degree murder statute, MCL
§ 750.316, which defines "premeditation and deliberation" were not proven beyond a reasonable
doubt as to each element and therefore, the case mandates reversal and a new trial, cf. McMillan
v Pennsylvania, ATI US 79,85 (1986). Accordingly, this case requires reversal. US Const.
Amend XIV. This case should be reversed under In re Winship, supra. US Const. Amend. XIV.
certiorari relief is warranted. 28 USC § 2254(d)(1)-(2). accord. In re Winship, 397 US, at 363.
14

The Contrary to Requirement
Petitioner is mindful that a state court adjudication is entitled to deference, and therefore,
anaylzed under the "unreasonable application" standard unless it is "contrary to" clearly
established federal law, as determined by this Court. CL 28 USC § 2254(d)(1). This statute
requires that:
A state court adjudication that is contrary to controlling federal law is reviewed de novo by
the federal court. !d.
The word 'contrary' is commonly understood to mean 'diametrically different,' 'opposite in
character or nature,' or 'mutally opposed.' Bell v Cone, 535 US 685, 694; 122 S Ct 1843 (2002).
Although it is said that a state court's adjudication is not 'contrary to’ merely because it does not
cite Supreme Court authority ... so long as neither the reasoning nor the results of the state court
decision contradicts them. Early v Packer, 537 US 3,8; 123 S Ct 362 (2002).

However, where

the state court's resolution rests on fraudulent facts of the case, or additional facts not in the
record, or expanded facts, then renders its adjudication on those fraudulent facts, the adjudication
is both 'contrary to' and indeed an 'unreasonable application of clearly established federal law.
Furthermore, where, as here, the state court adjudicated the sufficiency of the evidence
claim solely on its statutory duty to guard against miscarriages of justice, the state court’s refusal
to set aside the verdict under state law did not necessarily denote that it decided the sufficiency of
the evidence claim under Jackson v Virginia, 447 US, at 319. Therefore, with respect to that
theory, the court could not grant the state court's decision the deference that § 2254(d)(1)
envisions, ef. Leftwich v Maloney, 532 F3d 20,24 (1 st. Cir. 2008).
Petitioner urges this Certiorari Court that since Winship mandates "proof beyond a
reasonable doubt as to each element of the crime", and in his case, the elements of premeditation
and deliberation were significant elements of first degree murder and were not proven beyond a
reasonable doubt, it cannot be said that the state court's decision required any deference and
reversal of the conviction is required under the due process clause. US Const. Amend. XIV.

15

Petitioner's claim that his conviction rests on insufficient evidence to convict him of first
degree murder under MCL § 750.316, is buttresses by the fact that the state prosecutor allowed
perjured testimony from her police witnesses regarding evidence collected at the crime scene to
sway the jury into believing that Petitioner's version of the events leading up to the crime was
"unbeleivable." Thus, the prosecution's questioning of her witnesses was suborning perjury. (Tr
Vpp 110-111).
This Court addressed such a circumstance in McDanield v Brown, 558 US 120; 130 S Ct
665 (2010), and reversed and remanded for further proceedings consistent with its opinion. 558
US, at 136. The Court addressed such a circumstance under the ruling announced in Lockhart v
Nelson, 488 US 33, 42; 109 S Ct 285 (1988), and stated:" a reviewing court must consider all of
the evidence admitted by the trial court, regardless whether that evidence was admitted
erroneously." jdL at 41.
Petitioner asserts that because reversal for insufficiency of the evidence is equivalent to a
judgment of acquittal, such reversal bars a retrial. See, Bulks v United States, 437 US 1,18; 98 S
Ct 2141 (1978). To make the analogy complete, between reversal for insufficiency of the evidence
and the trial court's granting a judgment of acquittal, this Court should reverse on the notion that the
evidence presented by the state's prosecutor was insufficient to justify a first degree murder
conviction where the elements of "premeditation and deliberation" was not established, nor proven
beyond a reasonable doubt as required by the due process clause, cf. In re Winship, 397 US 358,
362. Accordingly, Petitioner urges this Court to grant him relief on the clearly established law
governing this claim from this Court. Accord Green v Massey, 437 US 19, 24; 98 S Ct 2151
(1978): Jackson v Virginia, 443 US, at 319.
Here, the Courts below did not evaluate the claim under the sufficiency of the evidence
standard announced in Jackson v Virginia, but rather, on the notion that two police officers testified
to not retrieving certain evidence which supported Petitioner's claim of self defense. Thus, the
rulings below does not denote that it decided the claim under this Court's clearly established law,
and thus, no deference should be allowed here, 28 USC § 2254(d)(1), mandating reversal.
16

ARGUMENT
[Certiorari Ground-Two]
PETITIONER'S CONVICTION MUST BE REVERSED WHERE THE EVIDENCE
NEEDED TO PROVE THE INTENT ELEMENT WAS DERIVED FROM
FABRICATED POLICE TESTIMONY PLACED BEFORE THE JURY WITHOUT
CORRECTION FROM THE PROSECUTION RESULTING IN A CONVICTION
PREDICATED ON PERJURED TESTIMONY VIOLATIVE OF DUE PROCESS AND
A FAIR TRIAL UNDER US CONST. AMEND. XIV.

The Inquiry for Certiorari:
Petitioner avers that in order to make a merit based determination on this claim, this Court
should revisit its decision announced in Berger v United States, 295 US 78,88 (1935), where this
Court made clear that:
A prosecutor may strike hard blows, buts/he is not at liberty to strike foul ones, and it is as
much his/her duty to refrain from improper methods calculated to produce a wrongful
conviction as it is to use every legitimate means to bring about a just one. 295 US, at 88.

Ibid
The State Courts Erroneous Determination of the Facts *
Petitioner points out to this Court that in addressing the misconduct of the trial prosecutor
where she allowed her police officers to testify falsely regarding a "clock fixture", the Michigan
Court of Appeals stated: 'Where the defendant is the initial aggressor in a fatal confrontation, the
victim's response cannot be legally sufficient provocation for the purpose of voluntary
manslaughter." (COA Sip. Op. p 3, Tf 2). This analysis by the Michigan Court of Appeals was
erroneous and based on incorrect facts. (COA Sip. Op. p 2, U 4).
The US District Court's Wrongful Assessment
The US District Court when addressing this claim with respect to police false testimony,
stated: "The trial court concluded that the prosecutor was simply commenting on the testimony of
the deputies... Petitioner presented nothing to suggest that the prosecutor knew the evidence to be
false. (Dist. Ct. Op p 21, II4). This too, was premised on false facts.
The constitutional problem is that the prosecutor knew her police officers were testifying
falsely regarding the clock-light fixture because she would not publish to the jury the first DVD
17

video of the initial search of the garage where the officers removed the object. In fact, the search
warrant was based on the object in question which initiated the search. The first DVD video was
not shown to the jury becaus eit would have depicted the clock-metal fixture. The second DVD
video was shown because it was taken after the clock fixture had been removed. Therefore, the
testimony regarding this item of evidence was completely false and the prosecutor's statement to
the jury that Petitioner was lying about being hit on the head with the metal fixture is the "foul blow"
outlawed in Berger, 295 US, at 88. Thus, under Napue v Illinois, 360 US 264, 270 (1959),
reversal is required.
The testimony regarding the light fixture was false and used to establish an intent to kill,
because had the first DVD had been shown to the jury where the fixture was visible, DePetitioner
would have been convicted of manslaughter because there was no intent element to kill the doctor.
The misleading testimony provided the element of intent which the prosecutor knew to be false.
Thus, as this Court said in United States v Agurs, 427 US 97, 103; 96 S Ct 2392 (1976), the
prosecutor knew, or should have known the testimony was false and she had a duty to correct it.
QL Giglio v United States, 405 US 150; 92 S Ct 763 (1972). The Courts below ignored this
clearly established law from this Court and and placed the perjury out in front of the due process.
"No matter the subject matter, a lie is a lie." 360 US, at 270. This was a foul blow. Berger, 295 US,
at 88. This law was clearly established at the time of Petitioner's trial, and appeals.
Because the second DVD was the only one shown to the jury, the misrepresentation of the
evidence surfaced, and was bolstered by the prosecutor’s assertion to the jury that Petitioner's
claim was a lie, she furthered her statements by allowing the perjury to surface, (Tr V p 79, p
111), (Dist. Ct. Op. p 18, 11 3). These facts were ignored by the Courts below allowing an
unconstitutional conviction to stand. US Const. Amend. XIV. cf. In re Winship, 397 US, at 364;
Christoffel v United States, 338 US 84,89; 69 S a 1441 (1949).
The Due Process Safeguard
The due process clause prohibits a conviction which is derived from the knowing use of
perjured testimony. The false assertions in any case is contrary to the guarantee of fundamental
18

fairness of the due process clause. Napue v Illinois, 360 US, at 266. Deliberate deception by a
prosecutor is incompatable with the rudimentary demands of justice. A conviction based upon
false testimony is constitutionally infirm. Mooney v Holohan, 294 US 103; 55 S Ct 340, 342
(1935). These cases are clearly establishe dlaw from this Court, and as such, all lower courts are
bound by those rulings. Agostini v Felton, 521 US 203,237-238 (1997).
A prosecutor's duty owed to the Courts should not go unrecognized simply to justify
imprisonment. Parr v Texas, 363 US 370, 393-394 (1960). This Certiorari Court is asked to
assure justice is not only observed, but is done in cases of controversy where a person's liberty is
at issue. Consequently, a conviction which is premised on false testimony offends the due
process clause and requires reversal. In Napue v Illinois, this Court opined:
"The principle that a state may not knowingly use false evidence, including false testimony,
to obtain a conviction, implicit in any concept of ordered liberty, does not cease to apply
merely because the false testimony goes only to the credibility of the witness. The jury's
estimate of the truthfulness and reliability of a given witness may well be determined of guilt
or innocence, and it is upon such subtle factors as the possible interest of the witness in
testifying falsely that a defendant's life or liberty may well depend. ... It is of no
consequence that the falsehood bore only to the witness's credibility as opposed to the guilt
of the accused... a lie is a lie." 360 US, at 270; 3 L Ed 2d, at 1221.
Because the Sixth Circuit relied on the erroneous assessment of the district court, which in
turn, relied on the misrepresentation of the facts of the case to allow the unconstitutional
conviction to stand, Petitioner is entitled to relief solely on the perjured testimony aiiowea Dy xne
state prosecutor. (Tr V pp 110-111); (Tr VI pp 138-139). Accord. California v Trombetta, 467 US
479; 104 S Ct 2528 (1984). Petitioner is entitled to habeas corpus relief in this case, and
certiorari should be granted on the inquiry on his claim of denial of a fundamental right to due
process, as announced in Engle v Isaac, 456 US 107; 71 L Ed 2d 783,799 (1982), and opined:
"The writ of habeas corpus indisputably holds an honored position in our
jurisprudence. Tracing its roots deep into English common law, it claims a place in Art
I of our Constitution. Today, as in prior centuries, the writ is a bulwark against
convictions that violate fundamental fairness." Wainwright v Sykes, 433 US, at 97; 53
L Ed 2d 594; 97 S Ct 2497. (Stevens, J., concurring).
On this principle of law, Petitioner is entitled to certiorari relief notwithstanding the
erroneous rulings from the courts below. US Const. Amends. XIV; Napue, 360 US, at 270.
19

SUMMARY AND CONCLUSION

WHEREFORE, and in light of the constitutional guarantee of a fair trial and just verdict,
which was not rendered in this case, Petitioner prays that this Honorable Court grants his petition
for writ of certiorari and issue an order that the case is remanded back to the lower courts with
instructions to grant the habeas petition for a new trial. Alternatively, since his conviction rests on
constitutionally insufficient evidence, issue an order that the case is reversed and Petitioner is
discharged from custody forthwith.

Patrick Alan Vercruysse
MDOC Id No. 252956
In Propria Persona
Lakeland Correctional Facility
141 First Street
Coldwater, Michigan 49036

Dated: May 14,2021

20

